Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




     NEW JERSEY CLAIMED
   UNALLOWABLE COMMUNITY
  SERVICES BLOCK GRANT COSTS
 INCURRED BY CHECK-MATE, INC.,
    UNDER THE RECOVERY ACT



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert
                                               Regional Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-02-11-02017
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
New Jersey claimed $246,359 for unallowable Community Services Block Grant program
costs incurred by Check-Mate, Inc., under the Recovery Act.

                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Community Services Block Grant (CSBG) program, which is administered by the
Administration for Children and Families (ACF), provides funds to States and local communities
to alleviate poverty. The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(Recovery Act), enacted February 17, 2009, provided $1 billion for CSBG program
funding. The Office of Inspector General is conducting reviews in multiple States to determine
whether CSBG Recovery Act costs were allowable. This review covers CSBG Recovery Act
costs claimed by the New Jersey Department of Community Affairs (State agency) for program
expenditures incurred by Check-Mate, Inc. (Check-Mate).

OBJECTIVE

Our objective was to determine whether CSBG costs that the State agency claimed under the
Recovery Act for Check-Mate’s program expenditures were allowable in accordance with
applicable Federal requirements.

BACKGROUND

Community Services Block Grant Program

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998 (CSBG Act), P.L. No. 105-285, authorized the CSBG program to provide funds to States
and local communities to alleviate poverty. Within the U.S. Department of Health and Human
Services (HHS), the ACF Office of Community Services administers the CSBG program. ACF
distributed CSBG Recovery Act funds to States and local communities through a network of
Community Action Agencies (CAAs) and other neighborhood-based organizations.

New Jersey Department of Community Affairs

In New Jersey, the State agency was responsible for approving CAA Recovery Act grant
applications and monitoring CAAs’ compliance with program requirements. 1 The State agency
was also required to manage and monitor CSBG Recovery Act subawards (45 CFR 74.51).
During the period April 10, 2009, through September 30, 2010, the State agency received more
than $27 million in CSBG funds under the Recovery Act.




1
  Section 676(a) of the CSBG Act requires each State to designate a State agency as the lead agency for carrying out
the State’s CSBG activities.



Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-11-02017)                                        1
Check-Mate, Inc.

Check-Mate is a not-for-profit CAA that assists individuals throughout Monmouth County, New
Jersey in obtaining the skills, knowledge, and opportunities to become self-sufficient. Check-
Mate is funded primarily through Federal, State and local government grants.

For the period April 10, 2009, through September 30, 2010, the State agency awarded Check-
Mate $1,460,106 in CSBG Recovery Act funds. Check-Mate expended $944,735 of the award.
The remaining $515,371 was not expended and was subsequently returned to the State agency.
In June 2012, subsequent to the end of our fieldwork, the State agency terminated Check-Mate’s
CSBG grant.

Federal Requirements for Grantees

States receiving CSBG funds are required to ensure that fund recipients comply with Office of
Management and Budget (OMB) cost and accounting standards (section 678D(a)(1)(B) of the
CSBG Act). Nonprofit CAAs are subject to 45 CFR part 74, through which HHS applies the
provisions of OMB Circular A-110. The regulations at 45 CFR § 74.27(a) state that the
allowability of costs will be determined in accordance with 2 CFR part 230, Cost Principles for
Non-Profit Organizations.

HOW WE CONDUCTED THIS REVIEW

We reviewed $695,098 of the State agency’s claim of $944,735 for Check-Mate’s program
expenditures funded by the CSBG Recovery Act award during the period April 10, 2009,
through September 30, 2010. 2 We also reviewed the State agency’s monitoring procedures and
monitoring reports related to Check-Mate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                   FINDINGS

Of the $695,098 of the State agency’s claim for Check-Mate’s program expenditures that we
reviewed, $246,359 in CSBG Recovery Act costs were unallowable. Specifically, costs were
improperly allocated to Check-Mate’s CSBG Recovery Act program ($158,155) and services
were provided to individuals whose incomes exceeded Recovery Act income thresholds or were
not documented ($88,204). The State agency claimed these unallowable costs because it did not


2
    We do not plan to review the remaining $249,637 in Check-Mate’s costs which we considered low-risk.



Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-11-02017)                               2
adequately monitor Check-Mate’s expenditures to ensure that CSBG costs were allowable in
accordance with applicable Federal requirements.

UNALLOCABLE COSTS

To be allowable under an award, costs must be allocable (2 CFR part 230, Appendix A, § A.4).

Check-Mate improperly allocated costs totaling $158,155 to its CSBG Recovery Act program.
Specifically, Check-Mate was unable to provide documentation to support salary and fringe
benefits ($126,997), repairs ($5,038), and consultant costs ($3,380) which were allocated to its
CSBG Recovery Act program. Also, $22,740 in training costs should have been allocated to a
separate weatherization grant.

COSTS ASSOCIATED WITH INELIGIBLE RECIPIENTS

Under the Recovery Act, CSBG services were only to be provided to families and individuals
whose incomes did not exceed 200 percent of Federal Poverty Guidelines. 3

Check-Mate did not ensure the financial eligibility of 180 of the 358 individuals for which it
claimed to have provided CSBG Recovery Act program services during our audit period. We
determined that Check-Mate provided services to 53 ineligible individuals whose income levels
exceeded CSBG Recovery Act eligibility limits. For the remaining 127 recipients, Check-Mate
did not document whether these recipients were eligible for CSBG Recovery Act services.
Specifically, for 41 individuals, case files contained no income-related information and for 86
others, the case file did not exist. We calculated the unallowable cost of services provided to
these 180 recipients during our audit period to be $88,204.

STATE AGENCY MONITORING OF CHECK-MATE WAS INADEQUATE

The State agency did not adequately monitor Check-Mate’s expenditures to ensure that CSBG
Recovery Act costs were allowable in accordance with applicable Federal requirements. The
State agency conducted one on-site monitoring visit at Check-Mate during the grant period,
about 6 months prior to the end of the CSBG Recovery Act award period. Although the State
agency’s review covered Check-Mate’s programmatic and financial operations, it did not
identify the significant program deficiencies covered in our report. Specifically, we found that
Check-Mate incurred significant expenditures that were improperly allocated or were for
services provided to ineligible recipients.

                                          RECOMMENDATION

We recommend that the State agency refund to the Federal Government $246,359 in unallocable
costs and costs associated with ineligible beneficiaries incurred by Check-Mate.



3
    Section 673(2) of the Recovery Act.



Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-11-02017)                        3
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendation and requested that it defer refunding the unallowable funds until it exhausts its
administrative remedies concerning its attempts to collect the funds from Check-Mate. In
addition, the State agency described its monitoring efforts, which resulted in its suspension of
Check-Mate’s CSBG grant award. The State agency also provided additional documentation
detailing these actions.

The State agency’s comments are included as Appendix B. 4

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional documentation, we maintain that
our findings and recommendation are valid. States receiving CSBG funds are required to ensure
that recipients comply with OMB cost and accounting standards (section 678D(a)(1)(B) of the
CSBG Act). Regarding the State agency’s request to defer refunding $246,359 in unallowable
costs while attempts to recover funds from Check-Mate are underway, we are not authorized to
make such a decision. Our recommendation that these unallowable funds be returned to the
Federal Government is forwarded to HHS, and the HHS action official will make a final
determination on the recommendation in this report. Therefore, we continue to recommend that
the State agency refund to the Federal Government $246,359 in unallocable costs and costs
associated with ineligible beneficiaries incurred by Check-Mate.




4
 We did not include the additional documentation as part of the appendix because the information contained therein
was not relevant to our recommendation.



Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-11-02017)                                      4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed CSBG Recovery Act expenditures, totaling $695,098, incurred by Check-Mate
during the period April 10, 2009, through September 30, 2010. We did not review the
overall internal control structure of the State agency or Check-Mate. Rather, we reviewed
only the internal controls that related to our objective.

We performed fieldwork at Check-Mate’s offices in Asbury Park, New Jersey, from November
2011 through September 2012.

We did not provide Check-Mate a copy of this report as they are no longer a recipient of Federal
funds.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations and guidance;

    •   reviewed the terms and conditions of the CSBG Recovery Act agreement between the
        State agency and Check-Mate;

    •   interviewed Check-Mate officials and reviewed Check-Mate’s financial management
        system policies and procedures;

    •   reviewed Check-Mate’s Office of Management and Budget Circular A-133 audit reports;

    •   reviewed the results of the State agency’s 2010 on-site monitoring visit;

    •   judgmentally selected and reviewed Check-Mate expenditures related to its CSBG
        Recovery Act program totaling $606,894;

    •   reviewed income eligibility information, if available, maintained by Check-Mate for
        individuals for which Check-Mate claimed that it provided CSBG Recovery Act services;

    •   calculated the unallowable CSBG Recovery Act costs associated with individuals
        determined to be financially ineligible; 5

    •   interviewed State agency officials to gain an understanding of their fiscal and program
        monitoring procedures and reviewed monitoring reports related to Check-Mate; and

5
 Specifically, we questioned the proportionate share of CSBG Recovery Act costs that remained after we applied
disallowances associated with the costs that we judgmentally selected.



Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-11-02017)                                      5
    •   discussed our findings with Check-Mate and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-11-02017)                    6
                           APPENDIX B: STATE AGENCY COMMENTS 





                                                   ~tate      of ~eb:l j/ersep
                                                DEPARTMENT OF COMMUNITY AfFAIRS
                                                      101 SOUTH BROAD STREET
     CHRIS CHRISTIE
                                                             PO Box800
        Governor                                                                                           RICHARD E. CONSTABLE,   III
                                                       TRENTON, NJ 08625-0800
                                                           (609) 292-6420                                        Commissione r
     KIM GUADAGNO
       Lt. Governor



                                                                 June 6, 2014


             Mr. James P_ Edert
             Regional Inspector General of Audit Services
             Department of Health & Human Services
             Office of Audit Services, Region II
             Jacob K. Javits Federal Building
             26 Federal Plaza, Room 3960
             New York, New York 10278


             Dear Mr. Edert:

                    We thank you for providing the New Jersey Department of Community Affairs (DCA)
             with the opportunity to respond to the Office ofAudit Services Report Number A-02-11-02017.

                     As yo u are aware, we have been in frequent communication with the federal Department
             of Health and Human Services' Office of the Inspector General's (OIG) auditors throughout this
             engagement. Further, we have provided the OIG with frequent updates concerning DCA's
             efforts to suspend and terminate Checkmate' s CSBG grant award. Please fmd below a response
             to the specific fmdings found in the report_

                     Office of Inspector General (OIG): The $246,359 in CSBG Recovery Act costs claimed
             by the State agency for Checkmate' s program expenditures that we reviewed were unallowable.
             Specifically, costs were improperly allocated to Checkmate's CSBG Recovery Act program
             ($158, 155 ) and services were provided to individuals whose income exceeded Recovery Act
             income thresholds or were not documented ($88,204).

                      DCA Response: During the scope of the audit, DCA conducted monitoring engagements
             in accordance with the applicable federal regulations. Specifically, 42 U.S-C.S. §9914(a)( l)
             states in relevant part, " In order to determine whether eligible entities meet the performance
             goals, admini strative standards, financial management requirements, and other requirements of a
             State, the State shall conduct the following reviews ofeligible entities: (1) A full onsite review of
             each such entity at least once during each 3-year period ... ."




                           New Jersey is an Equal Opportunity Employer • Printed on Recycled paper and Recyclable




Check-M ate, Inc., CSBG Costs Claimed Under the R ecovery Act (A-02-1 1-02017)                                                           7
                    During the audit's scope, DCA conducted monitoring of Checkmate's financial
             expenditures, programs and income eligibility. In doing so, DCA engaged the independent
             accounting firm, Mercadian P.C., CPAs, to conduct the monitoring engagement of Checkmate.
             The following items were reviewed as part of the agreed-upon procedures review that Mercadien
             undertook of Checkmate:

             1. 	       Expenditure reports submitted to DCA for the period ended September 30, 2009.
             2. 	       Cash receipts a nd di sbursements for the CSBG awards for the period ending September
                        30, 2009.
             3. 	       By-laws, Accounting Manual, Board Roster and Minutes of the Board Meetings for the
                        award period.
             4.     Audit Report for the year ended December 30, 2008.
             5.     Client files relating to CSBG disbursements sampled.
             6.     Various contracts related to disbursements for the CSBG awards.

                     The aforementioned monitoring reviews resulted in Checkmate being placed on
             corrective action plans which we have attached for your review (See Exhibit I).

                   Moreover, on May 18, 2012, DCA provided Checkmate with a notice of serious
            operational deficiencies (See attached Exhibit 2) which caused Checkmate to be materially non­
            compliant with the terms and conditions of its 20 11 CSBG Grant Agreement. Subsequently,
            DCA notified Checkmate that it had not demonstrated that it cured the instances of non­
            compliance that were identified on May 18, 2012.

                    As a result, DCA suspended Checkmate' s CSBG grant award on June 27, 20 12 (See
            attached Exhibit 3). Checkmate appealed DCA's decision to suspend its CSBG grant and
            requested a hearing pursuant to the New Jersey Administrative Procedures Act. DCA conducted
            an internal hearing at Checkmate's request that resulted in DCA's decision concerning the
            suspension of the CSBG grant being upheld. Subsequently, Checkmate appealed DCA's
            suspension of its CSBG grant award to the New Jersey Office of Administrative Law (OAL). At
            this time, the case is still being adjudicated by the OAL.  Throughout the defunding process,
            DCA has also been in constant contact with the federal Department of Health and Human
            Services (HHS) and has provided bi-weekly updates concerning the status of the OAL
            proceedings.

                   Presently, DCA does not provide CSBG or any other state or federal grant funds to
            Checkmate. As evidenced above, it is apparent that DCA exercised significant diligence to
            provide reasonable assurances that Checkmate was expending its CSBG grant funds in
            compliance with state and federal laws and regulations. Further, the record demonstrates that
            DCA took remedial steps, when appropriate, as compliance deficiencies were revealed.

                    Consequently, we respectfully request that the OIG's recommendation requesting that the
            State repay the $246,359 in unallocable costs be deferred until DCA concludes the pending OAL
            adjudication and exhausts its administrative remedies concerning its attempts to collect the funds
            from Checkmate.




                                                                                                            2




Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-I I-020!7)                                     8
                    Thank you for your consideration of this request. Should you have any questions, please
             do not hesitate to contact me at 609-292-6420.


                                                        Sincerely,

                                                          ~
                                                        Richard E. Constable, III
                                                        Commissioner

             Attachments

             c: 	 Ana Montero, Assistant Commissioner
                  Robert Bartolone, Director, Office of Auditing
                  Manuel Garcia, Deputy Director, Division of Housing & Community Affairs
                  Patricia Swartz, Office of Community Action




                                                                                                         3




Check-Mate, Inc., CSBG Costs Claimed Under the Recovery Act (A-02-1 1-02017)                                  9
